1,   /
                               Closeout of M90040020

                               to the attention
                              era1 Counsel refer




                                                        of the Center for
                                                       ity had submitted to
                                                       om a wublished DaDer
                                                           L          L   A

         written by other authors.
         OIG informed the university of this allegation and, at its request,
         the university performed an investigation. Its .finding was that
         both subjects had committed nmisconduct in scientific work," but
         that this misconduct was significantly less serious than
         plagiarism. OIG prepared an investigation report for the Deputy
         Director of NSF with the recommendation that a finding of
         misconduct in science, specifically plagiarism, be made against the
         first-named subject, and that he be debarred from receiving federal
         grant funds for two years.
         In June 1992, the first subject and the Deputy Director signed an     I
         agreement that resolves this case. Copies of the OIG investigation
         report and the agreement are attached.
                           NATIONAL SCIENCE FOUNDATION
                                 WASHINGTON. 0 C      20550




                                  AGREEMENT

                                           I.
                                         Recitals
A.   In December 1989,
     submitted grant p
     Foundation (NSF);

B.   The PI included in the proposal 122 lines of text that were copied from an article
     published by other authors. In his proposal, the PI did not indicate that the material was
     taken from the article and did not give attribution to the authors of the article.

C.   The proposal was rejected by NSF in August 1990.

D.   Based on an investigation report concerning the proposal by NSF' s Office of Inspector
     General, NSF issued a notice of proposed debarment of the PI on 14 November 1991.

E.   The PI, through counsel, . submitted information and argument in opposition to the
     proposed debarment in .a response dated 30 December 1991.


                                          11.
                                    Representations
A.   The PI understands that copying of substantial material without attribution constitutes
     pIagiarism under NSF's misconduct regulation.

B.   The PI acknowledges that his copying of 122 lines of text without attribution in an NSF
     proposal is improper. However, the PI represents-that this is the only instance in which
     he utilized the work of another without attribution. The PI further represents that he is
     genuinely remorseful for the copying without attribution that he committed in this case,
     and that he will not do it again.
C.     The PI has carefully read and understands all provisions of this agreement, is h U y
       satisfied with the terms and effects of this agreement, and has decided to execute this
       agreement of his own free will after consultation with legal counsel of his own choice.



                                          Agreement
       After careful evaluation, in reliance on the representations set out above and being aware
of no contrary facts, the PI and NSF agree as follows:

A.     The PI will not be an applicant (as principal investigator or co-principal investigator) or
       be among the senior, key, or supervisory personnel on a grant or cooperative agreement
       for scientific, mathematics, or engineering research or education with NSF until after
       February 28, 1994.
                           4   -                                                                1..
B.     If, within the period specified in paragraph IJI-A above, an application for financial or
       nonfiinancial assistanoe.or benefits i s submitted to any agency that requires a certification
       concerning whether the PI is voluntarily excluded by any Federal department or agency,
       the PI will inform that agency that he is voluntarily excluded by NSF, as described
       generally at 53 Fed. Reg. 19159 (26 May 1988). The PI will also provide any additional
       information as required by that agency. If the PI has such an application pending with
       any agency, he will either notify that agency about the terms of this agreement or
       withdraw that application within 7 calendar days after the date of the NSF Deputy
       Director's signing of t k s agreement.

C.     If the PI fails to comply with any term of this, agreement, he hereby agrees that such
       breach will constitute a cause of so serious or compelling a nature that it will then affect
       the present responsibility of the PI, and will thus constitute sufficient grounds for
       governmentwide debarment for five years from the date of breach, pursuant to NSF's
       debarment regulation; the PI hereby waives his .right to challenge such a debarment,
       except with regard to whether this agreement has been breached.

D.     NSF will take no further action against the PI in this matter.

E.     This agreement contains the entire agreement between the parties regarding the above-
       described matter, and no oral representation, promise, or agreement by and among the
       parties to the settlement has been given, can be relied upon, or is of any effect
       whatsoever. No modification, alteration, or addendum to this agreement shall be valid
       unless written and executed by both parties thereto.

F.     This agreement terminates and settles this matter, and no party may bring any legal
       action regarding this matter except concerning breach of this agreement.


                                                 2
G.    This Agreement will be null and void if it is not executed by the Deputy Director of NSF
      within seven (7) calendar days after the signing o.f this agreement by the PI and his
      counsel.




f &       d l
                 \

                                          A




Deputy Director, National Science Foundation
                                -M9Q~'-too10        T--




                                                   I      CONFIDENTIAL
                                  APPENDIX A
                          OIG INVESTIGATIVE REPORT--
                   MISCONDUCT IN SCIENCE AND ENGINEERING
                         BY PROF.

      Summary. T                   ector General (OIG) has determined
      that Prof.
      extensive
      NSF.   This conclusion is based on our examination of the case
      and on an investigation performed by the institution at our
      request, in which the institution found a lesser degree of
      misconduct. The institution's investigative report is attached,
      and is corrected and supplemented by this covering report.


1



I/




      which was then in STIA.
      In April 1990 OIG received an allegation that the Materials and




 'I




      OIG sent inquiry letters to               and         about this
      allegation in June 1990, receiving rep ies in July 1990 that did
      not seem to resolve the matter.     In August 1990 OIG sent the
      institution a request for a formal investigation.             The
      institution believed that it was required to conduct an inquiry
      first.   "It did so and in November sent NSF the inquiry
      committee's report, which recommended a full investigation by the
      institution.
      r  he;investigating committee was
      It held eight meetings and issued
                                             appointed in January 1991.
                                             its report in June.     Its
      findings are discussed below.   Its final decision was as follows:
    After extensive deliberations, the committee concluded
    that this is a case of blatant carelessness that
    constitutes a serious deviation from accepted practices
    within the scientific community.       A proposal was
    developed in which substantial portions of the
    Materials and Methods section of the
    paper were quoted and included
           submitted to NSF by Drs.
            providing sufficient
    in the opinion of the committee, constitutes misconduct
    in scientific work.




                         -
    It is also the opinion of the committee that there is
    insufficient evidence to substantiate the charge that
    Drs.a      n     d i n t e n d e d to deceive NSF. ( p.
    15 of investigative report)
The committee added that:
    We wish to emphasize that while the committee found
    misconduct in the investigated case, we felt that it
    was a significantly lesser degree of misconduct than
    plagiarism, fabrication, or falsification. (p. 16 of
    report )
On June 7, 1991 the Provost of w r o t e to OIG enclosing the
investigative report and notifying us that he had decided to take
the following actions:
     That NSF proposal
     and b
                                 submitted by Drs.
                 e withdrawn immediately.            P
     That Drs.                         receive letters of
     reprimand tfrom n      e   P    ~ Vice
                                          ~ President
                                               ~    o for~
     Academic Affairs.
The proposal had been declined by the program on technical
grounds in August 1990.
The evidence for plaqiarism. The    e   investigating committee
found that the Materials and Methods section of the proposal        f i , , , , , . h * . .i 7

appeared to be almost a word for word reproduction of the
Materials and Methods section of the            article, except
that three paragraphs in the article were om1 ted and a quite
different paragraph was substituted for one of them. (p. 5 of
investigative report) This is essentially correct, but does not
fully describe the situation.
The Materials and Methods section of the proposal is the
essential scientific part of it, containing an exact description
of how the proposed work is to be done.       It consists of 15
paragraphs of different lengths (plus the time table for the
                                                       y--
                                                       !     CONFIDENTIAL
     work, which is also placed in this section).    Twelve of these
     paragraphs consist entirely of sentences found in corresponding
     paragraphs in the paper, and the other three contain sentences
     that correspond to those in the paper, though they also contain
     new material.    With so much identical text in the two, the
     conclusion is inescapable that the proposal copied extensively
     from the paper. At the same time, this section of the proposal
     contains a few technical changes to the method described in the
     paper. These changes adapt the paper's research method to the
     new grape variety that was to be studied. They are obviously the
     work of someone with a professional knowledge of this area of
     research.
     There are also gaps and numerous typos in the proposal text, as
     compared with the paper. Other errors were introduced when the
     source references in the paper were transferred to the proposal.
     The references themselves are incorporated into the proposal
     bibliography, where their sequence numbers are different from
     what they were in the paper. These sequence numbers are used as
     callout numbers in the proposal text, replacing the original
     callout numbers used in the paper.     However, in this process
     several errors were introduced in the bibliographic entries and
     in the callout numbers in the text, and once one of the old
     callout numbers from the paper is used. The proposal describes
     the research steps in the future tense, but in two places it uses
     the past                                of these observations are
     discussed on                        investigative report.    They
                                        - -       copied material from
     the paper, but they suggest that the copying was carelessly done.
     ~ h e m i n v e s t i ~ a t i vreport
                                     e     further finds (p. 6) that there was
     no general statement at the beginning of the Materials and
     Methods section to indicate that the procedures were mainly
     adopted from the paper.             Acknowledgment of the
'!   article was made only in one part of the Materials an              ethods
                                                                          1984
     Section of the proposal, in a source reference attached to a
     specific technical                    6).   We note that this one source
     reference to the                     paper does not apply to the whole

          lThis one reference to t     h    e paper is evidently due
     to a typo. In the proposal bibliography,
     has sequence number 19. The callout to it in



     consistently, the proposal here would show callout number 17
     instead of 19. On p. 7 of the investigative report,
     admits that the citation to reference 19 is erroneous.
     19, which seems to cite the _paper,        is evidently a typo
     for 17.
               There is no acknowledgment of this copying from the
               paper anywhere in the proposal.
                            defense to the investigating committee.
                                                                      -
               Materials and Methods section of the proposal and does not give
               any indication that most of the section has been copied verbatim.



                            and oral testimony to the investigating committee in
               response to the allegations. His main defense was that he wrote
               the first version of this proposal for the purpose of submitting
               it to a private foundation. It was hastily put together.       He
               gave most of the methods section to a student secretary to type.
               This was done with the intention of changing it or appropriately
 I             modifying it at a later stage. In the end, he did not submit the
!I             proposal to that foundation. When he received the RIM1 program
               announcement, he again had to prepare his proposal in a hurry in
               order to get it to NSF before the .program deadline. He did not
               remember how the Materials and Methods section had been composed,
               and he was very busy at that time. "In the process of compiling




                                                                           -
 '1            and submitting the proposal, the error in question was made." (p.
               7 of investigative report)        Thus, what happened was an
               unintentional oversight.
               We note that the       committee found no evidence substantiating
     /I        the details of thls story and did not clear up its vague points.
               However, the evidence discussed above would be consistent with
               the picture of f marking changes on the
               and giving it to a s uient secretary to write
               and Methods section of the proposai. The student may have done
     a
     /I
               an ineffective typing job thad      i      d not correct.




                                                           -
                           defense to OIG. In his first letter to OIG, dated
                                            e a defense of his actions rather
                                              subsequently gave to the
               investigating committee. In that letter he does not acknowledge
               his extensive verbatim copying from t        h      e paper, which
               later became quite evident during the university investigation.
               Instead, he argues that the research steps he copied were well
               known and he had used them in previous studies (p. 2 of letter).
               There is no mention of the story concerning the student secretary
                              with which the proposal was- prepared. The change
                               testimony leads us to question his credibility.
                                      his actions more harshly   -  than we would
               otherwise.
                                                             .-     -
          !I              also claims credit for citing                  original
               sources, without acknowledging that these citations were
               themselves taken from the             paper.     He proposes as a
               remedy that one more                              paper might have
               been attached to one of the specific researc steps (bottom of p.
               2 of letter).   By suggesting this minimal remedy, he shows that
               he does not recognize or accept the severity of the problem.
    Conclusions. A finding of plagiarism requires a demonstration
    that the subject copied material from a source and failed to give
    due credit.     As noted previously, the f         investigating
    committee found that substantial portions o the Materials and
    Methods section of the paper were quoted and included in the
                   evidence discussed above supports this conclusion.
                    it clear that he alone is responsible for putting
                  material into the proposal:     "In preparing this
                    result of the limited time that was available, I
    asked my student worker, who at that time did most of my typing,
i   to type most of the methods in the paper on the word processor
1
    while I worked on the other portions of the proposal." (pp. 6-7
    of investigative report)




                                                         -
    The i n v e s t i g a t i n g committee also found that sufficient
    acknowledgement had not been given to the source of the copied
    material. We endorse this conclusion also.
    responsible for the preparation of the
    is responsible for the fact that
    paper was not made, and his
    plagiarism.
    The issue of intent. We note that the              investigating
    committee did not issue a finding of plagiarism on the basis of
    this evidence, but only found "blatant carelessness that
    constitutes a serious deviation from acce~ted ~ractices" (see
    above). A major reason influencing the committee w a s that "since
    any intention of Drs.
                         Tand
                          forf
    found convincing, it was 1 flcult
    act to plagiarism.
                                               to deceive NSF was not
                                             he committee to tie the
                          It was the belief of the committee that
    plagiarism and intention to deceive are irretrievably connected."
    (p. 15)    This argument is also prominent in
    testimony.


                                                            w
    OIG's position on this matter is that we have demonstrated, with
    much more than a preponderance of the evidence,
    committed an overt act of plagiarism.             that
                                                  He introduce
    plagiarized material into the proposal, failing to give due
    credit to the source. He signed the proposal as PI and had it
    sent to NSF, and thereby assumed full responsibility for its
    contents. These                      plagiarism quite apart from
    any question about            intentions.
    On the question of his intentions, we note that the         m
    committee did not find an absence of intent, but merely decided
    that it was unable to reach any conclusion on the subject. This
    result may be explained by the fact that the committee showed no
    clear idea of what would be required in order to prove the
    presence of intent.    The report does not indicate that the
    parties involved were asked specific questions that might have
    settled this matter.    OIG has not devoted any of its scarce
     -
     resources to conducting its own interviews in order to resolve
     the question.
                        that the existing evidence strongly indicates
                      intended to deceive NSF with his plagiarized
                           w e believe that a person's actions are
     ordinarily a good indication of what he intends.
     arsuments that he did not intend to do what he
     sulstained.  We have noted the general inconsistency in his
     testimony (see p. 4).
     Further, his explanations are implausible.     We are asked to
     believe that the proposal was hastily put together on two
     different occasions, when it was being prepared for the private
     foundation and when it was being prepared for NSF. We are also
     told that because of the hasty .preparation of the proposal
I1              did not have the opportunity to make appropriate
I
11   c anges In the Materials and Methods section of the proposal.
     However, the evidence shows that he did change that section so
     that it contains a complete but slightly new research method.
     Hence there is no basis for saying that he never paid attention
     to this section or that it is anything other than what he
     intended.
1I               explanations never address the verbatim plagiarism
                                     to his use of the research steps
     that appear in the          paper. His explanations therefore do
     not say how he                       the verbatim plagiarism even
     if he had not been in a hurry. It is not plausible ts us that he
     ever intended to insert a statement in his proposal to the effect
 i   that a large part of the Materials and Methods section had been
     copied verbatim from a published paper. Whether he prepared the
     proposal in a hurry or not, it is very unusual to see that kind
     of acknowledgment in a proposal. This.is another illustration of
     the implausibility of his defense.
     Our final argument for the implausibility of
                                                     hl   - - outside


                                                   Thiww!
     is that his proposal contains a plaqiarized paraqrap               the
                                                                    defense
     Materials and ~ e t h o d ssection. he last fill paragraph on p. 3
     is the same as the second paragraph of the paper.)
     discovered by the
                       -t        investigating committee, nor did

                                                 w
     call attention to 1         This additional paragraph demonstra es
     general intention to plagiarize from the                paper, and his
     explanations do not account for it at a1           or this reason and
     the others noted, we are unable to believe his explanations.
     The issue of        laim of originality in a proposal. In the
     report of the        committee of inquiry (p. 3) and elsewhere
     Lamikanra test        "...at no portion of the proposal did I
     indicate implicitly or explicitly that the methods were mine."
     This would suggest that there is no claim of originality in a
                                                   ..-,.
                                                           CONFIDENTIAL
     proposal, and therefore no possibility of plagiarism either.2 We
     maintain that a PI who submits a proposal has definitely implied
     to NSF that the research methods that PI wants to use are his or
     her own, unless otherwise stated. Certainly the program and the
     reviewers should be notified of verbatim copying from another
     author's publication.    Plagiarism in a proposal is definitely
     possible, and has occurred in this case.
           .   .   .


     f                          Prof. -as          the co-PI, and also
                           .
     The role of Prof.
     signed the proposa        Althoug    he was by far the junior
     participant, the investigating                    the same finding
     regarding both him and Prof.                 i.e., that they had
     exhibited "blatant                          constitutes serious
     deviation from accepted practices within the scientific
     community." (p. 15 of investigative report)        The University
11   Provost decided to send letters of reprimand to both. However.
I1   the roles of the two in the events of this case
I

               was responsible for introducing the
                proposal. f testified that
     proposal when it was essen lally completed and that he did not
     evaluate the Materials and Methods section, which dealt with
     matters outside his field of expertise (p. 8 of investigative
     report).    This testimony has not been contradicted.       If he
     exhibited any "blatant carelessness", it is only because he
     failed to detect the plagiarism, not because he created it. This
     is not a serious offense in our view, and OIG does not find that
     the evidence justifies the institution's conclusion that he
     committed                             we propose that NSF take no
     action against Prof.
     Recommendations. OIG recommends that, in accordance with 45 CFR
     689.8(a), the findings of the       investigation be accepted in
     part.    For the reasons stat e w e accept the institution1s
     finding that serious deviation from accepted practices within the
     scientific community has occurred, but we do not accept the
     finding that this deviation was of a
     than plagiarism.
     committed plagiarism in submitting proposal No.
     and accordingly we
     misconduct, and specifically plagiarism, under 45 CFR 689.




                   he-
                     investigative report ( p . 15 ) distinguishes what
     happened here from "a case of plagiarized data in a journal
     publication. This would have been a clear case of plagiarism."
     We reject this distinction.
